                                                                             Report No. DODIG-2013-086




              I nspec tor Ge ne ral
                                                       Department of Defense

              M AY 2 9 , 2 0 1 3




                     Complaint Regarding Tinker Air
                     Force Base Agreement to Pay an
                     Unallowable Markup on a Foreign
                     Military Sales Contract




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                   Results in Brief
                                   Results in Brief: Complaint Regarding Tinker Air
                                   Force Base Agreement to Pay an Unallowable Markup
                                   on a Foreign Military Sales Contract


May 29, 2013                                         Recommendations
Objective                                            We recommend the Deputy Assistant Secretary for Contracting,
                                                     Office of the Assistant Secretary of the Air Force for Acquisition
We reviewed a complaint alleging that a Tinker
                                                     improve the quality assurance procedures to help ensure that Tin-
Air Force Base contracting officer agreed to pay
                                                     ker Air Force Base contracting officers 1) limit negotiated materi-
a 22-percent unallowable markup on a foreign
                                                     al costs transferred to the costs incurred, 2) document adequate
military sales contract. The 22-percent mark-
                                                     rationale in the price negotiation memorandum when they do not
up issue involves a Foreign Military Sales base
                                                     adopt the specialist recommendations, and 3) take all practica-
contract that was negotiated in 2004, and option
                                                     ble steps to obtain recoupment of the $18.3 million profit that the
years that were negotiated in 2006 and 2007.
                                                     contracting officer had no authority to pay the DoD contractor.
Although the contract was negotiated several
years ago, we elected to review the complaint
and make appropriate recommendations be-             Comments
cause Tinker Air Force Base could be allowing        The Deputy Assistant Secretary for Contracting agreed with the
similar unallowable costs on current DoD and         findings and the planned actions met the intent of the recom-
Foreign Military Sales contracts.                    mendations. Therefore, no additional management comments
                                                     are required.
Findings
A Tinker Air Force Base contracting officer inap-
propriately agreed to pay a 22-percent markup
factor on materials transferred between affiliat-
ed contractors. As a result, a contractor received
an estimated $18.3 million in additional profit
under the foreign military sales contract that
was unallowable. According to Federal Acquisi-
tion Regulation 31.205-26 (e), “Material Costs,”
materials transferred between affiliated compa-
nies must be based on costs incurred, excluding
profit. The contracting officer allowed the mark-
up factor even though a Defense Contract Audit
Agency auditor and a Defense Contract Manage-
ment Agency attorney recommended that the
contracting officer disallow it. The contracting
officer failed to adequately explain in the price
negotiation memorandum why he did not adopt
the auditor and attorney recommendations.


Visit us on the web at www.dodig.mil

                                                                        DODIG-2013-086 (Project No. D2009-DIP0AI-0022.002) │ i
                   Recommendations Table
                                                                         Recommendations       No Additional
                                         Management                      Requiring Comment   Comments Required
                    Deputy Assistant Secretary for Contracting, Office
                    of the Assistant Secretary of the Air Force for                              1, 2, 3, 4, and 5
                    Acquisition




ii │ DODIG-2013-086 (Project No. D2009-DIP0AI-0022.002)
                                 FOR OFFICIAL USE ONLY

                                    INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350-1500




                                                                            May 29, 2013

MEMORANDUM FOR DEPUTY ASSISTANT SECRETARY FOR CONTRACTING,
		            OFFICE OF THE ASSISTANT SECRETARY OF THE AIR
		              FORCE FOR ACQUISITION
		            DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
		            DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT:	 Complaint Regarding Tinker Air Force Base Agreement to Pay an Unallowable 	
	         Markup on a Foreign Military Sales Contract
	         (Report No. DODIG-2013-086)

We are providing this report for your information and use. We substantiated a complaint
that a Tinker Air Force Base contracting officer inappropriately agreed to pay a
22-percent markup on a foreign military sales contract. As a result, a contractor received
$18.3 million in additional profit that was unallowable under Federal Acquisition
Regulation 31.205-26(e), “Material Costs.” The Air Force agreed to make improvements
to its quality assurance procedures to prevent similar reoccurrences.

DoD Directive 7650.3 requires that recommendations be resolved promptly. We considered
management comments on the draft of this report. The management comments conformed
to the requirements of DoD 7650.3; therefore, additional comments are not required.

We appreciate the courtesies extended to our staff. Questions should be directed to
Ms. Carolyn R. Davis at (703) 604-8760 (DSN 664-8760), carolyn.davis@dodig.mil.




						                                         Randolph R. Stone
						                                         Deputy Inspector General
						                                            Policy and Oversight




                     DRAFT REPORT            FOR OFFICIAL USE ONLY
                                                                                         DODIG-2013-086 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1

                  Finding
                  Payment of an Unallowable Markup on a Foreign Military Sales Contract__________________3
                  Recommendations, Management Comments, and Our Response____________________________7

                  Appendix A
                  Scope and Methodology_______________________________________________________________________ 10

                  Appendix B
                  Chronology of Events__________________________________________________________________________ 11

                  Management Comments
                  Air Force Comments___________________________________________________________________________ 12

                  Acronyms and Abbreviations______________________________________________ 15




iv │ DODIG-2013-086
                                                                                              Introduction




Introduction
Objective
We conducted this review to determine the validity of a complaint that a Tinker Air
Force Base contracting officer agreed to pay a 22-percent unallowable markup factor on
a foreign military sales (FMS) contract. According to the complainant, the contracting
officer agreed to pay the 22-percent markup even though Defense Contract Audit Agency
(DCAA) and a Defense Contract Management Agency (DCMA) attorney recommended
that the contracting officer disallow the markup.

See Appendix A for details of our scope and methodology.


Background
Foreign Military Sales
The FMS program is the U.S. Government method for transferring defense articles, services,
and training to other sovereign nations and international organizations approved to
participate in the program. Under the program, the U.S. Government procures the defense
articles and services on behalf of the foreign customer. Sales under the FMS program
totaled $25.2 billion in FY 2010 and $28.3 billion in FY 2011. In accordance with Defense
Federal Acquisition Regulation Supplement (DFARS) Subpart 225.73, “Acquisition for
Military Sales,” FMS contracts are subject to the same acquisition regulations as DoD
contracts (including the Federal Acquisition Regulation [FAR] and the DFARS).


Tinker Air Force Base–Oklahoma City Air Logistics Center
The Oklahoma City Air Logistics Center, Tinker Air Force Base, Oklahoma, is one of the
largest units in the Air Force Materiel Command. The Center performs maintenance,
repair and overhaul of military aircraft for the Navy, Air Force, Air Force Reserve, Air
National Guard, and countries approved to participate in FMS program. Additionally, the
Center is responsible for the maintenance, repair, and overhaul of several Navy and Air
Force airborne accessory components, and the development and sustainment of a diverse
range of operational flight programs, test program sets, automatic test equipment, and
industrial automation software.

A Tinker Air Force Base contracting officer negotiated the FMS contract addressed in this
report on behalf of the foreign military customer. In January 2013, the contracting officer




                                                                                          DODIG-2013-086 │ 1
Introduction



                 resigned from his position at Tinker Air Force Base and is now employed at another
                 federal Agency outside the DoD.


                 Defense Contract Management Agency
                 DCMA is the DoD Component that works directly with Defense suppliers to help ensure
                 that DoD, Federal, and allied government supplies and services are delivered on time and
                 at projected cost, and meet all performance requirements.

                 During the negotiation of the FMS contract, a DCMA attorney provided legal support in
                 connection with the FMS contract addressed in this report.


                 Defense Contract Audit Agency
                 DCAA performs contract audits and provides accounting and financial advisory services
                 in connection with the negotiation, administration and settlement of DoD contracts and
                 subcontracts. DCAA operates under the authority, direction and control of the Under
                 Secretary of Defense (Comptroller)/Chief Financial Officer.

                 The Tinker Air Force Base contracting officer requested that DCAA perform an audit of
                 the FMS proposal discussed in this report.




2 │ DODIG-2013-086
                                                                                                                                            Finding




Finding
Payment of an Unallowable Markup on a Foreign
Military Sales Contract
We substantiated the complainant’s allegation that a Tinker Air Force Base contracting
officer inappropriately agreed to pay a 22-percent unallowable markup factor proposed
by a DoD contractor on an FMS contract even though DCAA and a DCMA attorney
recommended that the contracting officer disallow the markup. As a result, the foreign
military customer paid an additional $18.3 million in unallowable profit under the FMS
contract. The additional profit was unallowable according to FAR 31.205-26(e), “Material
Costs,” which requires that material cost transferred between affiliated companies be
based on cost (excluding profit). In addition, the contracting officer failed to adequately
explain why he chose not to adopt the DCAA and DCMA recommendation to disallow the
markup factor.



FMS Contract Details
In February 2004, a Tinker Air Force Base contracting officer received a prime
contractor’s1 proposal to furnish repair parts for the F-100 aircraft. The proposed costs
for part of the materials were based on an estimate from a subcontractor, which included
a 22-percent markup factor. The estimated subcontractor material costs, excluding the
22-percent markup factor, were based on a negotiated parts list agreement between the
subcontractor and the Air Force. The 22-percent markup factor represented proposed
profit that was in addition to profit built into the subcontractor parts list agreement with
the Air Force. To obtain advice on whether the 22-percent markup was allowable, the
contracting officer requested that a DCMA attorney review the relationship between the
prime contractor and subcontractor to determine if they were affiliated companies. In
addition, the contracting officer asked DCAA to audit the FMS proposal, including the
22-percent markup.

In a May 2004 legal opinion, the DCMA attorney concluded that the prime contractor
and subcontractor were affiliated companies. On June 28, 2004, DCAA reported that the
markup was unallowable based on FAR 31.205-26(e), which requires that material costs
transferred between affiliated companies under a common control be based on costs


1	 	
       A prime contractor refers to a DoD contractor that has a direct contractual relationship with the Government to carry out
       the terms of the contract. Unless prohibited, the prime contractor can elect to employ a subcontractor to perform part of
       the tasks stipulated in the contract.




                                                                                                                                   DODIG-2013-086 │ 3
Finding



                 incurred. The DCAA audit report referenced the DCMA legal opinion in support of its
                 determination that the prime contractor and subcontractor were affiliated.

                 In July 2004, the Tinker Air Force Base contracting officer entered into an agreement
                 with the prime contractor for the “base” year portion of the FMS contract, allowing the
                 22-percent markup despite the DCMA legal and DCAA audit recommendations. In February
                 2005 and February 2007, the Tinker Air Force Base contracting officer exercised two
                 additional option years under the FMS contract and again agreed to pay the 22-percent
                 markup. Prior to the exercise of each option, DCAA reiterated its determination to the
                 contracting officer that the markup was unallowable in accordance with FAR 31.205-
                 26(e) and should be disallowed. In total, Tinker Air Force Base inappropriately agreed to
                 pay an estimated $18.3 million in additional profit associated with the 22-percent markup
                 for the base year and the two option years.

                 See Appendix B for a listing of the chronology of events.


                 Markup Allowability and Affiliate Relationship
                 DFARS 225.7303-2(b), “Cost of Doing Business with a Foreign Government or an
                 International Organization,” states, “Costs not allowable under FAR Part 31 are not
                 allowable in pricing FMS contracts….”

                 FAR 31.205-26(e) states:

                            Allowance for all materials, supplies, and services that are sold
                            or transferred between any divisions, subdivisions, subsidiaries,
                            or affiliates of the contractor under a common control shall be on
                            the basis of cost incurred in accordance with this subpart.

                 Based on our review of the relationship between the prime contractor and subcontractor,
                 these companies were clearly affiliated under a common control. According to FAR 2.101,
                 “Affiliates” means:

                            associated business concerns or individuals, directly or indirectly—
                            (1)	 Either one controls or can control the other, or
                            (2)	 A third party controls or can control both.

                 As of May 2004, the subcontractor owned the majority (59 percent) of equity interest
                 in the prime contractor. Furthermore, the subcontractor was the only party that could
                 block the vast majority of prime contractor management decisions. The unilateral ability




4 │ DODIG-2013-086
                                                                                                         Finding



to block management decisions equated to an indirect exercise of control. Because
the subcontractor had control over the prime contractor, they were affiliated and the
subcontractor’s material costs should have been limited to the costs incurred.

Accordingly, for the base year and the two option years, the Tinker Air Force Base
contracting officer did not comply with FAR 31.205-26(e) when he agreed to pay the 22
percent mark-up factor. The markup resulted in the FMS customer paying $18.3 million
in unallowable profit under the contract. The FMS contract is firm fixed-price in which
the FMS customer agreed to pay the negotiated contract value irrespective of the costs
the contractor incurred or the profits it received. Nonetheless, Tinker Air Force Base
contracting personnel have an obligation to take all practicable steps to recover the
unallowable profit that the contracting officer should not have paid to the DoD contractor.

We do not know the extent to which Tinker Air Force Base might have agreed to pay an
unallowable markup on other FMS or DoD contracts. Tinker Air Force Base should review
its current practices for negotiating contracts involving affiliated companies and establish
quality assurance procedures to help ensure that contracting officers limit negotiated
material costs transferred between companies to the costs incurred.


Inadequate Price Negotiation Memorandum
The price negotiation memorandum is a vital part of the contract file because it serves
as the primary source of documenting the contracting officer’s basis for establishing
a fair and reasonable price. It also shows the actions the contracting officer took to
address any specialist recommendations, such as legal and audit recommendations. FAR
15.405(a), “Price Negotiation,” states in part: “. . . when significant audit or other specialist
recommendations are not adopted, the contracting officer should provide rationale that
supports the negotiation result in the price negotiation documentation.” Although the
DCMA attorney and the DCAA auditor recommended that the contracting officer disallow
the 22-percent markup, the contracting officer still agreed to pay it and did not document
adequate rationale in the price negotiation memorandum for doing so.

In the price negotiation memorandum, the Tinker Air Force Base contracting officer did
not dispute the DCMA or DCAA conclusion that the subcontractor and prime contractor
were affiliated, or that the 22-percent markup factor was unallowable. In fact, the price
negotiation memorandum reflects that the contracting officer initially attempted to
negotiate the elimination (or reduction) of the markup, but the prime contractor would not
agree to it. Ultimately, the contracting officer agreed to pay the markup and documented
the following two explanations for this action in the price negotiation memorandum.




                                                                                                DODIG-2013-086 │ 5
Finding



                          •	 The FMS contract has “political implications” and the FMS customer is anxious
                            to execute the contract in order to maintain military capability.

                          •	 After factoring in the “harsh environmental conditions,” the proposed material
                            costs (inclusive of the 22-percent markup) are considered reasonable.

                 However, the price negotiation memorandum does not adequately explain what the
                 “political implications” were or provide evidence to support any political implications.
                 The price negotiation memorandum also did not explain, or provide evidence to support,
                 how the disallowance of the 22-percent markup would impact the FMS customer’s
                 military capability. When we interviewed the contracting officer, he could not clarify what
                 he meant by “political implications” or provide evidence of the FMS customer’s concerns
                 over maintaining military capability.

                 In addition, the contracting officer could not adequately support the rationale involving
                 the “harsh environmental conditions” cited in the price negotiation memorandum. The
                 price negotiation memorandum refers to a technical analysis written by a Tinker Air
                 Force Base engineer that concluded, according to the contracting officer, the proposed
                 price (inclusive of the 22-percent markup) was reasonable after factoring in the harsh
                 environmental conditions. However, we reviewed the technical analysis and found
                 that it did not address price reasonableness or the 22-percent markup. In addition, we
                 interviewed the engineer who confirmed that his analysis covered only the quantities
                 and types of material proposed by the subcontractor, not price reasonableness or the 22
                 percent markup. If the environmental conditions were severe, the subcontractor would
                 have incorporated additional quantities in its proposal to account for spoilage associated
                 with those conditions. The environmental conditions would not have impacted the
                 material unit price. Therefore, the contracting officer’s use of the engineer’s technical
                 analysis to justify payment of the 22-percent markup was inappropriate.

                 It should be noted that if extraordinary circumstances did exist which necessitated the
                 payment of the 22-percent markup; the contracting officer should have requested a
                 deviation in accordance with the procedures outlined in FAR 1.4, “Deviations,” and FAR
                 31.101, “Objectives.” The contracting officer does not have the authority to reimburse
                 an expense that is unallowable according to the FAR, absent a properly approved FAR
                 deviation. Tinker Air Force Base should consider corrective and/or administrative action
                 for the failure of the contracting officer to comply with the FAR and include adequate
                 rationale for not adopting the specialist recommendations.

                 Tinker Air Force Base should implement quality assurance procedures to help ensure that
                 contracting officers document adequate rationale in the price negotiation memorandum



6 │ DODIG-2013-086
                                                                                                    Finding



when they do not adopt audit and other specialist recommendations, in accordance with
FAR 15.405(a). Tinker Air Force Base should also consider providing training on the
procedures and instructions for requesting deviations from the FAR, as outlined in FAR
1.4 and FAR 31.101.


Recommendations, Management Comments, and Our
Response
Recommendation 1
We recommend that the Deputy Assistant Secretary for Contracting, Office of the Assistant
Secretary of the Air Force for Acquisition:

Assess Tinker Air Force Base practices for negotiating contracts between affiliated
companies and establish quality assurance procedures to help ensure that contracting
officers limit negotiated material costs transferred between affiliated companies to the
cost incurred, in accordance with Federal Acquisition Regulation 31.205-26(e).


Air Force Comments
The Deputy Assistant Secretary agreed and stated that Tinker Air Force Base personnel
performed a review of foreign military sales contracts with affiliated companies and
concluded that the acceptance of an unallowable markup on an FMS contract was an
isolated incident. Also, the Director of the Air Force Sustainment will create and implement
additional training on affiliated companies to ensure that contracting personnel
understand the regulations and requirements. The Air Force established additional levels
of oversight to prevent similar errors.


Our Response
The management comments are responsive, and no additional response to this
recommendation is required.


Recommendation 2
Implement quality assurance procedures to ensure that Tinker Air Force Base contracting
officers adequately explain the rationale for not adopting audit specialist and other
specialist recommendations in the price negotiation memorandum, as Federal Acquisition
Regulation 15.405(a) requires.




                                                                                           DODIG-2013-086 │ 7
Finding



                 Air Force Comments
                 The Deputy Assistant Secretary agreed and stated that Tinker Air Force Base has included
                 the topic of not adopting specialist recommendations in quarterly training provided
                 to contracting personnel. The training places specific emphasis on the requirement
                 for documenting rationale when not adopting the recommendations of audit or other
                 specialists.


                 Our Response
                 The management comments are responsive, and no additional response to this
                 recommendation is required.


                 Recommendation 3
                 Provide training on the procedures and instructions for requesting deviations outlined in
                 Federal Acquisition Regulation 1.4 and 31.101.


                 Air Force Comments
                 The Deputy Assistant Secretary agreed and stated that Tinker Air Force Base will implement
                 refresher training on how to process individual FAR deviations when circumstances are
                 determined appropriate and consistent with the DFARS.


                 Our Response
                 The management comments are responsive, and no additional response to this
                 recommendation is required.


                 Recommendation 4
                 Consider appropriate corrective and/or administrative action for agreeing to pay for an
                 unallowable markup factor and failing to document adequate rationale for not adopting
                 audit and legal specialist recommendations.


                 Air Force Comments
                 The Deputy Assistant Secretary agreed but is unable to take further action. The contracting
                 officer associated with this specific contract resigned in January 2013. The Air Force has
                 no purview to take corrective or administrative action against this individual because he
                 is no longer employed by the Air Force.




8 │ DODIG-2013-086
                                                                                                  Finding



Our Response
The management comments are responsive, and no additional response to this
recommendation is required. We agree that the Air Force is unable to take corrective or
administrative action because the individual is no longer a DoD employee.


Recommendation 5
Direct Tinker Air Force Base contracting personnel to take all practicable steps to obtain
recoupment of $18.3 million profit that the contracting officer had no authority to pay
based on FAR 31.205-26(3).


Air Force Comments
The Deputy Assistant Secretary agreed with the DoD Office of Inspector General’s
concern; however, the overpayment is impracticable to recover. The Air Force would take
practicable steps to recover the $18.3 million; however the contract is administratively
closed and there are no unliquidated obligations to recover the funds. Air Force legal
counsel sees no practicable way to recover these funds.


Our Response
The management comments are responsive, and no additional response to this
recommendation is required.




                                                                                         DODIG-2013-086 │ 9
Appendices




                 Appendix A
                 Scope and Methodology
                 We conducted this review in accordance with the Council of the Inspectors General on
                 Integrity and Efficiency “Quality Standards for Inspection and Evaluation.” To determine
                 the validity of the complaint addressed in this report, we:

                          •	 interviewed appropriate Government personnel at Tinker Air Force Base,
                            DCMA and DCAA;

                          •	 obtained and reviewed files and correspondence involving the FMS contract
                            from Tinker Air Force Base, DCMA, and DCAA; and

                          •	 reviewed Tinker Air Force Base contracting official actions to determine if
                            they complied with applicable procurement regulations, DoD Instructions,
                            and agency procedures.

                 We interviewed the Tinker Air Force Base contracting officer, engineer, attorney,
                 and other Tinker Air Force Base procurement representatives involved in the FMS
                 contract. In addition, we spoke to DCAA personnel who participated in auditing the FMS
                 proposal. We placed some of the interviewees under oath, we recorded the interviews,
                 and we obtained a transcription of the interviews. In addition, our review included an
                 evaluation of applicable regulations and agency procedures. We also examined written
                 communications and contract files associated with the FMS contract.

                 We performed this review from April 1, 2012, through January 11, 2013. We received the
                 complaint in FY 2009. We substantially delayed our review of the complaint to work on
                 several other high-priority DoD Hotline complaints and high-risk reviews of DCAA.


                 Use of Computer-Processed Data
                 We did not rely on any computer-processed data as part of our review.


                 Prior Coverage
                 During the last 5 years, the DoD Inspector General did not conduct any reviews involving
                 FMS contracts that were negotiated by Tinker Air Force Base.




10 │ DODIG-2013-086
                                                                                                 Appendices




Appendix B
Chronology of Events
           Date                                 Description
                    As requested, the prime contractor submitted a proposal to provide
February 25, 2004   spare parts for the F-100 aircraft.
                    The Tinker Air Force Base contracting officer requested that DCAA
March 24, 2004      review the FMS proposal, including the subcontractor-proposed
                    22-percent markup factor.
                    The contracting officer requested that DCMA determine if the
May 26, 2004        prime contractor and subcontractor were affiliated.
                    The DCMA attorney issued its legal opinion advising the contracting
May 28, 2004        officer that the prime contractor and subcontractor were affiliated
                    because the subcontractor had control over the prime contractor.
                    DCAA issued its audit report on the FMS proposal. DCAA
June 28, 2004       questioned the markup factor as unallowable per FAR 31.205-26(e),
                    since the prime contractor and subcontractor were affiliated.
                    Tinker Air Force Base entered into an agreement with the prime
July 29, 2004       contractor for the “basic” year of the FMS contract, allowing the
                    22-percent markup factor.
                    DCAA issued its audit report on the first option year of the FMS
August 24, 2005     contract, again questioning the markup factor as unallowable.
                    Tinker Air Force Base modified the FMS contract to exercise the first
February 2, 2006    option year under the contract. The first option year included the
                    22-percent markup factor.
                    DCAA issued its audit report addressing the second option year of
December 11, 2006   the FMS contract, reiterating its opinion that the markup factor was
                    unallowable.
                    Tinker Air Force Base exercised the second option year of the
February 21, 2007   FMS contract. The negotiated amount for the second option year
                    included the 22-percent markup factor.
December 17, 2008   DoD IG received the complaint addressed in this report.
                    The Tinker Air Force Base contracting officer who agreed to pay the
January 2013        22-percent markup resigned from the Air Force.




                                                                                            DODIG-2013-086 │ 11
Management Comments




                 Management Comments
                 Air Force Comments




12 │ DODIG-2013-086
Management Comments




      DODIG-2013-086 │ 13
Management Comments




14 │ DODIG-2013-086
                                                              Acronyms and Abbreviations



Acronyms and Abbreviations
    DCAA Defense Contract Audit Agency
    DCMA Defense Contract Management Agency
    DFARS Defense Federal Acquisition Regulation Supplement
      FAR Federal Acquisition Regulation
     FMS Foreign Military Sales




                                                                         DODIG-2013-086 │ 15
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D e pa r t m e n t o f D e f e n s e │ I n s p e c t o r G e n e r a l
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
